                                                                       Unitf'd Stale:.; Departme-Ilt of State
                                                                       and the Broadcasti ng Board of Governors

                                                                       Office of Inspector Ceu('ral


                                                                        November 15,2011



Board of Governors
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Members of the Board:

An independent certified public accounting finn, Clarke Leiper, PLLC, was engaged to
audit the financial statements of the Broadcasting Board of Governors (BBG) as of
September 30, 2011 and 2010, and for the years then ended, to provide a report on
internal control over financial reporting (including safeguarding assets) and compliance
with laws and regulations, and to report any reportable noncompliance with laws and
regulations it tested. The contract required that the audit be perfonned in accordance
with U.S. generally accepted government auditing standards; Office of Management and
Budget audit guidance; and the Financial Audit Manual, issued by the Government
Accountability Office and the President's Council on Integrity and Efficiency.

In its audit of BBG, Clarke leiper, PLLC, found

           • 	 the financial statements were presented fairly, in all material respects, in
               confonnity with accounting principles generally accepted in the United States
               of America;

           • 	 there were no material weaknesses 1 in internal control; and

           • 	 there were no reportable instances of noncompliance with laws and
               regulations tested.

Clarke Leiper, PLLC, is responsible for the enclosed auditor's report, Independent
Auditor 's Report on the Broadcasting Board ofGovernors 20J I and 20JO Financial
Statements (AUD/IB-12-07), dated November 15, 201 1, and the conclusions expressed in
thc report. The Office of Inspector General (OIG) does not express an opinion on BBG's
fmancial statements or conclusions on intcrnal control or compliance with laws and
regulations.



I   A material weakness is a deficiency or combination of deficiencies in internal control such that there is a
reasonable possibility that a material misstatement orthe entity's financial statements will not be prevented
or detected and corrected on a timely basis.
DIG appreciates the cooperation extended to it and Clarke Leiper, PLLC, by BSG
managers and staff during this audit.

Sincerely,

/f0/v.·~
Harold W. Geisel 

Deputy Inspector General 


Enclosure: As stated.




                                          2

   Independent Auditor’s Report




Broadcasting Board of Governors


     Financial Statements



   September 30, 2011 and 2010




    AUD/IB-12-07, November 2011






         Clarke Leiper, PLLC


      Certified Public Accountants


         6265 Franconia Road


      Alexandria, Virginia 22310


             (703) 922-7622


                                           CLARKE LEIPER PLLC
                                       CERTIFIED PUBLIC ACCOUNTANTS
                                             6265 FRANCONIA ROAD
                                           ALEXANDRIA, VA 22310-2510
                                                  703-922-7622
                                               FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER




                                INDEPENDENT AUDITOR’S REPORT


       To the Board of Governors


       Broadcasting Board of Governors



       We have audited the accompanying Broadcasting Board of Governors (BBG)
       Consolidated Balance Sheets, Consolidated Statements of Net Cost, Consolidated
       Statements of Changes in Net Position, and Combined Statements of Budgetary
       Resources (annual financial statements) as of, and for the years ended, September 30,
       2011 and 2010. We have considered internal control over financial reporting and
       compliance in place as of September 30, 2011, and for the year then ended, and we tested
       compliance with selected laws and regulations.

       In our audits of BBG’s 2011 and 2010 financial statements, we found

           •		 the financial statements are presented fairly, in all material respects, in conformity
               with accounting principles generally accepted in the United States of America;

           •		 no material weaknesses in internal control over financial reporting and
               compliance with laws and regulations; and

           •		 no instances of reportable noncompliance with laws and regulations we tested.

       Each of these conclusions is discussed in more detail on the following pages. This report
       also discusses our audit objectives, scope, and methodology.


                     OPINION ON THE ANNUAL FINANCIAL STATEMENTS

       In our opinion, BBG’s annual financial statements, including the notes thereto, present
       fairly, in all material respects, BBG’s financial position as of September 30, 2011 and
       2010, and its net cost of operations, changes in net position, and changes in budgetary
       resources for the years then ended, in conformity with accounting principles generally
       accepted in the United States of America.
                                 INTERNAL CONTROL



In planning and performing our audits of BBG’s annual financial statements as of, and
for the years ended, September 30, 2011 and 2010, in accordance with auditing standards
generally accepted in the United States of America, we considered BBG’s internal
control over financial reporting and compliance as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the annual financial statements
but not for the purpose of expressing an opinion on the effectiveness of BBG’s internal
control over financial reporting and compliance. Accordingly, we do not express an
opinion on the effectiveness of BBG’s internal control or on management’s assertion on
internal control included in the Management’s Discussion and Analysis section.

We limited our consideration of internal control to those controls necessary to achieve the
objectives described in Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended. We did not consider all
internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to
ensuring efficient operations.

The purpose of internal control is to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       •		 Financial reporting: Transactions are properly recorded, processed, and
           summarized to permit the preparation of financial statements in conformity
           with accounting principles generally accepted in the United States of America,
           and assets are safeguarded against loss from unauthorized acquisition, use, or
           disposition.

       •		 Compliance with laws and regulations: Transactions are executed in
           accordance with laws governing the use of budget authority, government-wide
           policies, laws identified by OMB in Appendix E of Bulletin 07-04, and other
           laws and regulations that could have a direct and material effect on the annual
           financial statements.

A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent or detect and correct misstatements on a timely basis. A material
weakness is a deficiency or combination of deficiencies in internal control such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented or detected and corrected on a timely basis.

Our consideration of the internal control over financial reporting and compliance was not
designed to identify all deficiencies in internal control that might be deficiencies,
significant deficiencies, or material weaknesses. Therefore, there can be no assurance
that all deficiencies, significant deficiencies, or material weaknesses have been identified.




                                              2


We did not identify any deficiencies in internal control that we consider to be material
weaknesses as defined above.

However, we consider the following three deficiencies in BBG’s internal control to be
significant deficiencies. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness yet important
enough to merit attention by those charged with governance.

   •		 During audit work, we identified exceptions with BBG property records. For
       instance, we found that BBG did not always record acquisitions and disposals in
       the year of occurrence. Because of these delays, we noted errors related to the
       amounts of depreciation recorded for some items. BBG did not have a sufficient
       process in place to ensure that property records were up to date. Although BBG
       identifies and corrects discrepancies during its annual physical inventory process,
       additional reconciliation procedures are not performed during the year to ensure
       that the asset inventory accurately reflects acquisitions and disposals. Inadequate
       controls over property custodianship can increase the risk of theft or fraud.

The condition related to property, plant, and equipment was cited in our audit of BBG’s
FY 2009 financial statements.

   •		 BBG’s controls over unliquidated obligations (ULO) are inadequate. BBG does
       not have a sufficient process to ensure that invalid ULOs are identified and
       deobligated in a timely manner. A weak control environment over ULOs
       increases the potential for a material misstatement. Invalid ULOs also affect the
       management of funds. Specifically, funds that could be used by BBG for other
       purposes have remained in unneeded obligations. Further, the large number of
       invalid ULOs makes monitoring ULOs more difficult and increases the risk of
       duplicate or fraudulent payments. In addition, the inability to produce
       documentation supporting financial transactions can lengthen processing times for
       analyses and reconciliations, as well as increase the possibility of undetected
       errors.

The condition related to ULOs was cited in our audit of BBG’s FY 2010 financial
statements.

   •		 BBG does not have a process or procedures in place for estimating the liability for
       Foreign Service National after-employment benefits, including lump-sum
       retirement and separation benefits. Although BBG has estimated an amount for
       its FY 2011 financial statements, the methodology has not been vetted by an
       actuary and therefore may not be sufficiently estimating BBG’s liability.

We are required to review BBG’s current FMFIA report and disclose differences with the
material weaknesses cited in our report. We did not identify any discrepancies.




                                             3


We noted certain other internal control issues that we will report to BBG management in
a separate letter.

                  COMPLIANCE WITH LAWS AND REGULATIONS

BBG management is responsible for complying with laws and regulations applicable to
BBG. As part of obtaining reasonable assurance about whether the annual financial
statements are free of material misstatement, we performed tests of BBG’s compliance
with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin 07-04, as amended, that we
deemed applicable to BBG’s annual financial statements. We limited our tests of
compliance to these provisions, and we did not test compliance with all laws and
regulations applicable to BBG. Noncompliance may occur and not be detected by these
tests. This testing may not be sufficient for other purposes. The objective of our audit of
the annual financial statements, including our tests of compliance with provisions of
selected laws and regulations, was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

Reportable instances of noncompliance are failures to follow requirements or violations
of prohibitions in statutes and regulations that cause us to conclude that the aggregation
of the misstatements resulting from those failures or violations is material to the financial
statements or that sensitivity warrants disclosure thereof. The results of our tests of
compliance with selected provisions of laws and regulations disclosed no reportable
instances of noncompliance.

                     CONSISTENCY OF OTHER INFORMATION

BBG’s Management’s Discussion and Analysis and required supplementary information
contain a wide range of information, some of which is not directly related to the financial
statements. We did not audit and accordingly do not express an opinion on this
information. We have applied certain limited procedures, which consisted principally of
comparing the information for consistency with the financial statements and making
inquiries of management regarding the methods of measurement and presentation of the
supplementary information. On the basis of this limited work, we found no material
inconsistencies with the financial statements, accounting principles generally accepted in
the United States of America, or OMB guidance.

                     RESPONSIBILITIES AND METHODOLOGY

BBG management has the responsibility for

       •		 preparing the annual financial statements, required supplementary
           information, and other accompanying information in conformity with
           accounting principles generally accepted in the United States of America;




                                              4

        •		 establishing, maintaining, and assessing internal control to provide reasonable
            assurance that the broad control objectives of FMFIA are met; and

        •		 complying with applicable laws and regulations.

We are responsible for expressing an opinion on the annual financial statements based on
our audits. We are responsible for planning and performing an audit to obtain reasonable
assurance about whether BBG’s financial statements are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States
of America. We are also responsible for determining whether BBG management
maintained effective internal control. In addition, we are responsible for testing
compliance with selected provisions of applicable laws and regulations that may
materially affect the financial statements and performing limited procedures with respect
to certain other information appearing in the annual financial statements.

In order to fulfill these responsibilities, we

        •		 examined, on a test basis, evidence supporting the amounts in the annual
            financial statements and related disclosures;

        •		 assessed the accounting principles used and significant estimates made by
            management;

        •		 evaluated the overall presentation of the annual financial statements;

        •		 obtained an understanding of the entity and its operations, including its
            internal controls related to financial reporting and compliance with laws and
            regulations;

        •		 tested relevant internal controls over financial reporting and compliance and
            evaluated the design and operating effectiveness of internal control;

        •		 considered the design of the process for evaluating and reporting on internal
            control and financial management systems under FMFIA;

        •		 tested compliance with provisions of selected laws and regulations that may
            have a direct and material effect on the annual financial statements;

        •		 obtained written representations from management; and

        •		 performed other procedures we considered necessary under the circumstances.

We performed our audits in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in the
Government Auditing Standards, and the provisions of OMB Bulletin 07-04. We believe
that our audits provided a reasonable basis for our opinions.


                                                 5

This report is intended solely for the information and use of BBG management, the
Office of Inspector General, OMB, the Government Accountability Office, the
Department of the Treasury, and Congress and is not intended to be and should not be
used by anyone other than those specified parties. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.

Comments by BBG management on this report are presented as an appendix. The written
response by BBG management has not been subjected to the auditing procedures applied
in the audit of the financial statements and, accordingly, we do not express an opinion on
these comments.




                                              Clarke Leiper, PLLC


Alexandria, Virginia
November 15, 2011




                                             6


                                                                                                                                   APPENDIX

                    BROADCASTING BOARD OF GOVERNORS
                    BROADCASrlNG
                    UNITED STATES OF AMERICA 




       November 15, 2011

       The H o no rable lIllar
                            aroold
                                ld W. Ge ise l
                                      Geise
       Deputy Inspector
               In spector General
       Office o f In spector Genera l
       2201 C Street, N,W..W.
       Wass hi
       Wa      ngto n, D C 20520
            hingt

       Dear Mr. Geisel:

       Thank )y'OLl  ou for the o pport
                                   pporruun ity to comment on    a ll the draft report of o f BBG      fiscal yea r 2011
                                                                                              BSG 's liseal                   fi nancia l
                                                                                                                     201 1 financia
       sta
       s ta tem e nt  s. The financia
                    nts.      fi nanc ia l stateme nts received
                                                       recei ved an unnqualified
                                                                         qual ified opinion.
                                                                                    o pin io n. S imilar
                                                                                                  imi lar ly.
                                                                                                           y, the report o011n inter
                                                                                                                                 nternnall
       conntr
       co    troo ls and co mp liiance with laws and reg           ulation s noted no materia l defic iencies
                                                               regulation                                     enc ies o r reportable
                                                                                                                           reporta ble
       co
       connddition
               ition s.

       We greatl y appreciate lhe
                               the professional
                                   profess ional and coopera
                                                       coopcrdti
                                                              t ive ma nner in whic
                                                                                  wh ic h yo ur staff a nd the audit
                                                                                                               aud it finn
                                                                                                                      fi nn ,
       C larke Le iper
                   per., PLLC. co nducted (t his audit. Thr               2 0 1 1 ~ the BSG ha
                                                            oughout FY 2011,
                                                         Throughou                              hass made strides toward
       i mpro
         mprovv in g in lterna
                           ma lI financia
                                 fi nanc ia l pro
                                              process es. So me o f th ese improve me nt
                                                  cesses.                                   n ts ar
                                                                                                 aree reflec
                                                                                                      re flec ted in yo
                                                                                                                     youu r report . The
                                                                                                                                     T he
       re port identifi ed th
       report                   ree m atters
                             three             invo lving in
                                       allers inVOlving   imeternal                 thee audi to rs co
                                                               rnal co nt rols that th              conns idered s ig niificanL.
                                                                                                                         fi can t.

       Th
       Thee firs
              firstt issue re la t es 1t0o in t ernal cont
                                                       contrro ls o ver property , p lan  ant,t, and equip ment   ent. BOG
                                                                                                                        BIJG wi  willll st
                                                                                                                                        strengthen
                                                                                                                                           rengthen
        nterna l co
       internal     conntr o l over property, plant, and equi          pment to e nsu
                                                                  equipment               sure
                                                                                             re property tra nsactions are timely      time ly and
                                        expand ing the kn ow ledge, thr
       a cc urat e ly recorded by expanding                                  ough ex
                                                                         through     extt e rnal
                                                                                            rna l train       o f all enti
                                                                                                        ing,, of
                                                                                                  training            entitt ies inv
                                                                                                                                 invoo lved in the
       p rocess. In addi
       process.                tion, the BBG Pr
                        addition,                   o perty Office will
                                                  Property            wi ll re fi ne th
                                                                            refine   thee s tandard process for recording
                                                                                                                       record ing acqui      siti o ns
                                                                                                                                      acquisitions
             d isposa l in form
       and disposal           or m at io n for prope11
                                               propcnyy that e mphasizes the   th e importan
                                                                                    impo rtancce of t imely and accurate information
                                                                                                                                   in forma tion .

        T he s eco nd issue re lates t o un
       The                                   liqu idated obligations
                                           unliquidated   bli gations ba lunce s. s. In t he pa
                                                                                              pass t year, the I3 I:3BG
                                                                                                                     BG has implemented
       a<l new monthly
                  month ly process to fac il itate the t ime
                                                          imely      ev iew oof un
                                                               ly r eview        unliliquidated
                                                                                       quidated bala   nce s.
                                                                                                  balance   s. 
 The CFO's
                                                                                                                      C FO 's Offi    will
                                                                                                                                   cc w
                                                                                                                              Office    ill
        c::x pllnd and
        I;:xpllnd  al1(l implement
                         im plement th thee ULO proced                    lp e nsure a sys
                                                          uress 1'to0 heelp
                                                    procedure                                tematic proce ss loo rr
 monitoring
                                                                                          systematic                     mo nitoring and
        verify ing un l iquidated
        verifying        iq uidated o bligation
                                      bligat ion balances a nd en    suring tim
                                                                 ensuring      imee ly deobligalaliol1s
                                                                                        cobt igatalions..

       The third
              thi rd issue
                      issllc relates to es t imating Foreign
                                                     Fore ign Service Nationals
                                                                      Nat iona ls (FSN) aft'er-emp
                                                                                         arter-emp loyment benefits l iabil ity.
       The BBG will imp       im pllement
                                    ement processes and procedure s to accurately
                                                                           accurate ly estimCltc
                                                                                       estimatc t he FSN after-employment
                                                                                                            after-e mployment
       Iliabi litie s and will
         iabilitie           ill mai ntain a current inventory of after-employmen
                                 maintain                          after-emp loymen t benefit'sS provided
                                                                                                 prov ided to FSN employees
                                                                                                                    emp loye es
       by post.

       Thank yoyouu lroo r the op po rtunity
                                        rtun ity to com    men t on t he audi t report and fro r wo
                                                      commen                                         rkin
                                                                                                   work   g coo
                                                                                                        ing cooppe ra tive
                                                                                                                       tivelyly wi
                                                                                                                                wit h us
       througho uttlh
       lhrollgho     th e a ud it process. Th        BBG
                                               Thee SB  G is co mmmmitt   ed to co
                                                                       iued        nti nuous i mproveme nt or
                                                                                continuous                 of o ur int
                                                                                                                   intee rn al contro ls,.
          ocesses , a nd t he q uali
       p rocesses.                alitty of o ur fin  anc ia l report in
                                                  fi nancia           ing.
                                                                         g.

       S incerely.
       Sincerely.



    ~  Ma  ryjca
       MClry jeann Bu hlle r
       C hie
         hieff Financia
               Financ ia l Offi cerr
                           Office



330 INDEPENDENCE  AVENUE.
    INDEPENDE NCE AVEN     SW
                       UE, SW             ROOM 3360         COHEN BUILD
                                                                  BUILDING
                                                                        ING           WASHIN (.I ON, DC 202.17
                                                                                      WASHIN<.r'TQN.    202.~7          (202) 2Q3.4545
                                                                                                                              200-4S45                2()3..4568
                                                                                                                                            FAX (202) 203-4568
